Capital Case
Case No.19-1105

In the

Supreme Court of the United States
TOMMY SHARP, Interim Warden
Oklahoma State Penitentiary,
Petitioner,
v.
JIMMY DEAN HARRIS
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF SERVICE
Respondent’s Brief in Opposition to
Petition for Writ of Certiorari

I, Emma V. Rolls, a member of the Bar of this Court, pursuant to Rule 29.3 of the
Rules of the Supreme Court of the United States, hereby certify that on this 11th day of May,
2020, I served a copy of Respondent’s Brief in Opposition to the clerk of the Supreme Court
via electronic email as well as electronic mail to counsel for Petitioner.
I further certify that the original and ten (10) copies were mailed via Federal Express
for delivery within three calendar days to the United States Supreme Court Clerk’s office.
Jennifer L. Crabb, Assistant Attorney General
313 N.E. 21st Street, Oklahoma City, OK 73105
jennifer.crabb@oag.ok.gov; fhc.docket@oag.ok.gov
Counsel for Petitioner
s/ Emma V. Rolls
Emma V. Rolls, OBA # 18820
Assistant Federal Public Defender
Counsel of Record for Respondent,
Jimmy Dean Harris

